HHS/OIG-Audit--"Review of Outpatient Psychiatric Services Provided by Provena St. Joseph Hospital for the Period September 1, 1996 Through November 30, 1997, (A-05-00-00034)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Psychiatric Services Provided by Provena St. Joseph
Hospital for the Period September 1, 1996 Through November 30, 1997," (A-05-00-00034)
November 2, 2000
Complete Text of Report is available in PDF format
(1.64 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that significant numbers of outpatient psychiatric
claims by Provena St. Joseph Hospital for the 15-month period ending November
30, 1997 did not meet Medicare reimbursement requirements. Specifically, many
outpatient psychiatric services were not medically necessary, not supported
by medical records, or without any medical record. We estimate, based on a statistical
sample, that unallowable charges totaled at least $1.9 million for the above
period. We also identified another $97,494 in other unallowable costs for meals,
patient transportation, and other costs which were not supported. We recommended
financial adjustments. We also recommended that the hospital strengthen its
controls and procedures to ensure that charges for outpatient psychiatric services
are covered and documented in accordance with Medicare requirements. Finally,
we recommended that the hospital develop procedures to exclude unallowable costs
from its Medicare cost reports.